                     OFFICE OF
             THE INSPECTOR GENERAL
                   U.S. NUCLEAR
             REGULATORY COMMISSION


                   Audit of NRC’s Reactor Program System


                         OIG-05-A-11 April 13, 2005




                        AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                          April 13, 2005




MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum/RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S REACTOR PROGRAM SYSTEM
                            (OIG-05-A-11)

Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of
NRC’s Reactor Program System.

This audit found that while the implementation of the Reactor Program System
(RPS) has allowed for a single system for entering inspection information, the
information is not well protected, is not complete, and is not fully accurate. To
ensure that the system meets operational requirements, NRC needs to:

        ¾          Comply with RPS access control requirements.
        ¾          Ensure accurate and timely inspection data.
        ¾          Improve management of the system help service.
        ¾          Improve the system configuration control process.
        ¾          Provide training to system users.

During an exit conference on March 2, 2005, NRC officials provided informal
comments concerning the draft audit report. Subsequent to that meeting, OIG
met with agency senior managers to address issues and comments needing
further clarification and/or explanation. Comments your office provided at the exit
meeting and during subsequent discussions have been incorporated, as
appropriate, in our final report.

If you have any questions, please call Beth Serepca at 415-5911 or me at
415-5915.

Attachment: As stated
Distribution


John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Luis A. Reyes, Executive Director for Operations
Jacqueline E. Silber, Deputy Executive Director for Information Services
 and Administration and Chief Information Officer, OEDO
William F. Kane, Deputy Executive Director for Reactor and Preparedness
 Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research ,
 State and Compliance Programs, OEDO
William M. Dean, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Frank J. Congel, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
Paul E. Bird, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
Office of Public Affairs, Region I
Office of Public Affairs, Region II
Office of Public Affairs, Region IV
                                                      Audit of NRC’s Reactor Program System



EXECUTIVE SUMMARY

BACKGROUND

             The Nuclear Regulatory Commission's (NRC) mission is to regulate
             the Nation's civilian use of byproduct, source, and special nuclear
             materials to ensure adequate protection of public health and safety,
             promote the common defense and security, and protect the
             environment. Fundamental to the regulatory process is NRC’s
             commercial nuclear power plant inspection program, which
             assesses whether plant operations are properly conducted and
             equipment is properly maintained. Inspectors examine licensee
             activity, provide inspection findings to licensee managers, and
             conduct followup inspections to ensure that corrective actions are
             taken.

             The Reactor Program System (RPS) is an information technology
             tool that provides planning, scheduling, and reporting capabilities to
             support the NRC reactor inspection and licensing programs. It is
             used by NRC managers to assess the effectiveness and uniformity
             of the implementation of those programs and related policies. The
             Office of Nuclear Reactor Regulation (NRR) and the regions use
             RPS to schedule their work assignments and to plan and schedule
             licensing activities in NRR and inspection activities at nuclear
             power plants.

PURPOSE

             The objectives of this audit were to determine if RPS (1) provides
             for the availability, confidentiality, and integrity of the data stored in
             the system and (2) meets its required operational capabilities.

RESULTS IN BRIEF

             While the implementation of RPS has allowed for a single system
             for entering inspection information, the information is not well
             protected, is not complete, and is not fully accurate. To ensure that
             the system meets operational requirements, NRC needs to:

             ¾   Comply with RPS access control requirements.
             ¾   Ensure accurate and timely inspection data.
             ¾   Improve management of the system help service.
             ¾   Improve the system configuration control process.
             ¾   Provide training to system users.




                                          i
                                              Audit of NRC’s Reactor Program System



RECOMMENDATIONS

          This report makes 10 recommendations to strengthen protection
          over RPS data and better ensure the system meets its operational
          requirements. A consolidated list of recommendations appears on
          page 19 of this report.

AGENCY COMMENTS

          At an exit conference with agency senior executives held on
          March 2, 2005, NRC officials generally agreed with the report’s
          findings and recommendations. Subsequent to that meeting, Office
          of the Inspector General (OIG) staff met with NRR staff to address
          specific issues and concerns needing further clarification and/or
          explanation. On March 31, 2005, the Executive Director of
          Operations provided a formal response to this report in which he
          agreed with the final version of the report. Appendix B contains a
          copy of the agency’s written comments.




                                   ii
                                       Audit of NRC’s Reactor Program System



ABBREVIATIONS AND ACRONYMS

        OIG     Office of the Inspector General
        NRC     Nuclear Regulatory Commission
        NRR     Office of Nuclear Reactor Regulation
        RPS     Reactor Program System
        SDLCM   System Development and Life-Cycle Management




                            iii
                          Audit of NRC’s Reactor Program System




[Page intentionally left blank.]




               iv
                                                                        Audit of NRC’s Reactor Program System



TABLE OF CONTENTS


EXECUTIVE SUMMARY ....................................................................................... i

ABBREVIATIONS AND ACRONYMS...................................................................iii

I.      BACKGROUND ......................................................................................... 1

II.     PURPOSE.................................................................................................. 3

III.    FINDINGS .................................................................................................. 3

        A.       NON-COMPLIANCE WITH RPS ACCESS CONTROL
                 REQUIREMENTS ................................................................................. 3

        B.       INSPECTION DATA INACCURATE AND UNTIMELY .................................... 7

        C.       RPS HELP (RPSHELP) IS INEFFICIENT ............................................ 10

        D.       CONFIGURATION CONTROL PROCESS HAS NOT
                 IDENTIFIED SOME CONCERNS ........................................................... 12

        E.       TRAINING AND GUIDANCE NOT PROVIDED TO SYSTEM USERS ............. 15

IV.     CONSOLIDATED LIST OF RECOMMENDATIONS ................................ 18

V.      AGENCY COMMENTS ............................................................................ 19


APENDICES

        A. SCOPE AND METHODOLOGY ......................................................... 21

        B. FORMAL AGENCY COMMENTS ....................................................... 23




                                                        v
                          Audit of NRC’s Reactor Program System




[Page intentionally left blank.]




               vi
                                                                  Audit of NRC’s Reactor Program System



I. BACKGROUND

                 NRC’s mission is to regulate the Nation's civilian use of byproduct,
                 source, and special nuclear materials to ensure adequate
                 protection of public health and safety, promote the common
                 defense and security, and protect the environment. Fundamental
                 to the regulatory process is NRC’s commercial nuclear power plant
                 inspection program, which assesses whether plant operations are
                 properly conducted and equipment is properly maintained.
                 Inspectors examine licensee activity, provide inspection findings to
                 licensee managers, and conduct followup inspections to ensure
                 that corrective actions are taken.

                 RPS is an information technology tool that provides planning,
                 scheduling, and reporting capabilities to support the NRC reactor
                 inspection and licensing programs. It is used by NRC managers to
                 assess the effectiveness and uniformity of the implementation of
                 those programs and related policies. NRR and the regions use
                 RPS to schedule their work assignments and to plan and schedule
                 licensing activities in NRR and inspection activities at nuclear
                 power plants.

                 The RPS database includes inspection and licensing information,
                 plant performance indicators, inspection followup items, and other
                 administrative and reactor regulatory data. This information is
                 contained in 13 currently active modules,1 3 of which are
                 specifically used to track inspection schedules and results of the
                 inspection program.

                 Inspection schedules, inspection reports, performance assessment
                 letters, plant item matrices, performance indicator data, and
                 operator licensing exam schedules are posted on the NRC external
                 Web site. This information provided a single location for the public
                 to obtain information from RPS and supports the agency’s goal to
                 ensure openness in the regulatory process.

                 System development was initiated in 1995 when NRR recognized a
                 need for regulatory and administrative improvements in the
                 inspection program. The system became operational in 1998,
                 bringing together functions that were previously performed by 10
                 separate mainframe systems that served the reactor inspection
                 program in headquarters and the regions. In designing the system,
                 NRR intended for NRC employees in headquarters and the regions

1
 After audit fieldwork was completed, a 14th module was added to RPS to support the anticipated receipt of
a construction inspection application related to the building of a new nuclear reactor.


                                                    1
                                                                     Audit of NRC’s Reactor Program System



                  to use an integrated method for planning, scheduling, and reporting
                  activities related to reactor inspections. The system was also
                  intended to allow data to be entered one time in an effort to reduce
                  the data duplication that occurred when the inspection data was
                  stored in separate mainframe systems.

                  In the years since its implementation, RPS has evolved to meet
                  changing agency needs and fulfill inspection program requirements.
                  For example, the agency’s implementation of a revised reactor
                  oversight process2 in 2000 necessitated changes in RPS, including
                  how and what type of information would be stored in the system.

                  Overall, more than 1,400 people use RPS agencywide, although
                  not all users have access to all modules. Data is entered into RPS
                  primarily by regional staff3 but is analyzed by both regional and
                  headquarters employees.

                  NRR developed and funded RPS and continues to support and
                  maintain the system. To coordinate the needs of NRC regional and
                  headquarters users, NRR conducts a meeting every 6 months or on
                  an as-needed basis. Participants, referred to as RPS counterparts,
                  bring ideas and suggestions for improving the system. Meetings
                  are chaired by system managers who are responsible for
                  maintaining and updating the system based on user needs. NRR
                  modifies RPS in response to changes in agency policies, feedback
                  received from users, and information shared during the counterpart
                  meetings. NRR issues updated versions of the system when
                  appropriate.

                  RPS cost $2.7 million to develop and costs $650,000 to maintain
                  yearly. According to NRC’s Web site, the agency has saved
                  $800,000 each year due to the discontinued use of the 10
                  mainframe systems.




2
 OIG has issued two reports assessing components of the revised reactor oversight process:
OIG-02-A-15, Review of NRC’s Significance Determination Process, and OIG-05-A-06, Audit of NRC’s
Baseline Inspection Program. OIG plans to conduct a third audit in this area during fiscal year 2005 on the
performance indicator program.
3
  NRC regional staff includes senior resident inspectors, resident inspectors, and office assistants at
licensee sites, and employees working from NRC’s four regional offices.


                                                       2
                                                   Audit of NRC’s Reactor Program System



II. PURPOSE

          The objectives of this audit were to determine if RPS (1) provides
          for the availability, confidentiality, and integrity of the data stored in
          the system and (2) meets its required operational capabilities.


III. FINDINGS

          While the implementation of RPS has allowed for a single system
          for entering inspection information, improvements are needed in
          RPS to strengthen protection over data stored in the system and
          better ensure the system meets its operational requirements.
          Specifically, NRC needs to:

          ¾   Comply with RPS access control requirements.
          ¾   Ensure accurate and timely inspection data.
          ¾   Improve management of the system help service.
          ¾   Improve the system configuration control process.
          ¾   Provide training to system users.


     A. NON-COMPLIANCE WITH RPS ACCESS CONTROL REQUIREMENTS

          RPS user access to inspection data is not restricted to the minimum
          amount necessary because the system offers regional employees
          only one level of access to inspection data (read-and-write). In
          addition, many employees have access to RPS modules they do
          not use. This occurs because (1) there is no written guidance on
          which users should receive what level of access and (2) there is no
          process for removing users from the system after they no longer
          require access. Failure to restrict RPS access increases the risk to
          system data accuracy and security.

          Security Plan Requirements

          The RPS security plan acknowledges that individuals authorized to
          have access to information systems potentially impose the greatest
          harm to those systems, both accidentally and intentionally. The
          RPS security plan lists various security controls to prevent and
          detect harm to the system. Such controls include employee
          background checks, the ability to associate users with their system




                                       3
                                                                  Audit of NRC’s Reactor Program System



                 activity, and the practice of restricting a user’s access to data files
                 and the levels of access (e.g., read, write, execute, delete) to the
                 minimum amount necessary to perform his or her job. This latter
                 practice is known as least privilege.

                 Least Privilege Principle Not Followed

                 The RPS security plan states that the least privilege principle
                 should be followed in granting access rights to system users.
                 However, this principle is not applied effectively in two ways: (1)
                 many users have access to modules they do not use and (2) the
                 amount of access that many users have (write access4) to
                 inspection data exceeds the actual access needed to perform their
                 job functions.

                 As noted in the background, RPS contains 13 modules and users
                 are granted read-only or read-and-write access to varying numbers
                 of these modules based on the nature of their duties. Of the 13
                 modules, 3 are used to track inspection schedules and results of
                 the inspection program:

                 ¾ The Inspection Planning module contains information on
                   inspection schedules for NRC licensee sites, including reactor
                   outages and visits by reactor inspectors.
                 ¾ The Item Reporting module contains the results of all
                   inspections performed at the sites, including information on
                   safety issues and inspection followup items.
                 ¾ The Reports module provides users with more than 100
                   standard reports on RPS data including information in the
                   Inspection Planning and Item Reporting modules.

                 As of August 2004, 738 headquarters and regional employees were
                 authorized read access to data in the Inspection Planning module,
                 684 were authorized read access to data in the Item Reporting
                 module, and 1,382 were authorized read access to data in the
                 Reports module. Write access to the Item Reporting and
                 Inspection Planning modules was more restricted; on average 178
                 employees in each of NRC’s 4 regional offices were authorized
                 write access to the inspection data pertaining to their region in
                 these modules.5




4
  Write access is the ability to enter and change system data.
5
  The Reports module does not offer a write-access option because this module uses existing data in the
Item Reporting and Inspection Planning modules to create different reports.


                                                    4
                                                                  Audit of NRC’s Reactor Program System



                 OIG further determined that most of the employees in each region
                 with write access to inspection data contained in the Inspection
                 Planning and Item Reporting modules do not require this access.
                 Relatively few of these individuals actually enter RPS inspection
                 data in the regions. In one region, 6 employees are responsible for
                 entering all of the region’s data into RPS, although 200 employees
                 have the capability. All of these employees are based in the
                 regional office. In another region, approximately 58 employees
                 working at both reactor sites and in the region enter such data,
                 while 144 employees have the capability to do so. Similarly, in the
                 other two regions, more individuals have access rights to enter
                 information in RPS than actually use this capability.

                 OIG compared the number of employees authorized any type of
                 access to 11 RPS modules6 with the number of employees who
                 actually visited those modules during a 7½-month period during
                 2004. Many users with access to RPS modules used those
                 modules rarely, if at all. Table 1 presents a comparison of users
                 assigned access to each of the 11 RPS modules with the usage
                 levels for that 7½-month period.




6
  NRR could provide data concerning only 11 of the 13 modules that were functional during the fieldwork
stage of this audit.


                                                    5
                                                Audit of NRC’s Reactor Program System



Table 1.

  Comparison of RPS Users With Access to Each Module to Actual Number
                      of Users, as of August 18, 2004
Module             Number of           Actual Number of Percentage of
                   Employees           Users, 1/1/04-   Users Who
                   Authorized Access 8/18/04            Accessed Module
Inspection                738                 510             69.1
Planning
Item Reporting            684                 451             65.9
Reports                  1,382                413             29.9
Inspection                726                 115             15.8
Procedure
Authority System
Inspection                480                  14              2.9
Planning Cycle
Inspection Report          89                  42             47.2
Tracking System
Time Resource             607                 453             74.6
Inventory
Management
NRC Utilities              33                  18             54.6
Security Access            39                  27             69.2
Method
Safety Information         15                   5             33.3
Management
System
Tables                     40                  31             77.5

           As seen above, for five of the modules, less than half of the
           authorized users visited the modules at any time during the 7½
           months. One module in particular had especially low use with only
           2.9 percent of authorized users accessing the module during this
           timeframe.

           Access Not Sufficiently Restricted

           Many regional employees who do not need write access to the
           Inspection Planning and Item Reporting modules have it because
           RPS offers them only one level of access (read-and-write).
           Regional employees are granted read access to all inspection data
           in RPS and write access to inspection data pertaining to their
           specific region.




                                    6
                                              Audit of NRC’s Reactor Program System



      In addition, many employees have access to RPS modules they do
      not use because they were not removed from the system after they
      no longer required access. In headquarters, there is no established
      process for offices to inform the RPS system administrator of the
      need to terminate user access when an employee’s job duties no
      longer require access. In the regional offices, discretion for
      removing access is left to the time and labor coordinator. As a
      result, headquarters does not provide oversight to ensure that this
      process occurs overall.

      Failure to restrict access to RPS modules based on the least
      privilege principle leads to an increased risk to the accuracy and
      integrity of the system data. In addition, by not removing inactive
      users, the system is not in compliance with the principle of least
      privilege.

      Recommendations

      OIG recommends that the Executive Director for Operations:

      1.   Implement a tiered access level structure that allows users
           access to RPS modules based on the least privilege principle.
           This should include guidance on which users may receive
           what level of access.

      2.   Implement a process for removing access rights from inactive
           Reactor Program System users.


B. INSPECTION DATA INACCURATE AND UNTIMELY

      Some RPS inspection data is inaccurate and untimely because the
      regions employ inconsistent quality control processes over RPS
      data and because RPS data is never locked down to prevent
      alterations to the data after it is entered in the system. Inaccurate
      and untimely inspection results can negatively affect NRC
      decisionmaking and public confidence. Although there are multiple
      safety nets in place, including management expertise, to ensure
      public health and safety, inaccurate inspection results could affect
      the agency’s ability to fulfill its mission of ensuring public health and
      safety.




                                  7
                                                                    Audit of NRC’s Reactor Program System



                  Data Entry Policy

                  NRC Inspection Manual, Chapter 0306, “Information Technology
                  Support for the Reactor Oversight Process,” provides policy and
                  guidance on using NRC information management systems that
                  support the reactor inspection program. It requires the timely and
                  accurate entry of RPS data for all regional reactor inspection
                  activities. Furthermore, upon completing an inspection and no later
                  than 10 days after the exit meeting with the licensee, the branch
                  chief (or designee) responsible for the inspection must update RPS
                  with the inspection results.

                  Inconsistent and Untimely Sample Data

                  Despite the above cited requirements, data is not consistently
                  accurate or entered into RPS within the 10-day deadline. OIG
                  compared data from 32 inspection reports7 with data contained in
                  the RPS Item Reporting module. The intent of this comparison was
                  to determine (1) if the sample sizes reported in the inspection
                  reports were consistent with the data reported in RPS and (2)
                  whether the sample size data had been entered within the required
                  timeframe.8 In total, OIG assessed the accuracy of 646 data items
                  and found inconsistencies in 13.5 percent of the sample data.9
                  Based on a statistical analysis of this information, as much as 23
                  percent of the inspection data could be inconsistent between RPS
                  and the inspection reports. In one case, the number of instances a
                  procedure was conducted was overstated by more than 100
                  percent in RPS. This analysis also identified that 32 percent of the
                  data concerning sample size was entered into RPS outside the
                  required time period. In one instance, data was entered into RPS
                  378 days after the exit meeting with the licensee.

                  Inconsistent Quality Control Process

                  These data inaccuracies and timeliness issues occurred because
                  the regions employ inconsistent quality control processes over RPS
                  data and because RPS data is never locked down after it is
                  entered, allowing it to be modified at any time by anyone with write
                  access to the data.
7
  Auditors reviewed a total of 646 data items contained in 32 inspection reports. These reports reflected
results drawn from four commercial nuclear power plants in each of NRC’s four regions
8
  Auditors did not attempt to compare data items in cases where sample size, as described in the inspection
report, was unclear.
9
 RPS data was only compared to inspection report data for consistency. When discrepancies were found,
no conclusions were drawn as to whether RPS or the inspection report contained the correct information.




                                                      8
                                       Audit of NRC’s Reactor Program System



Although NRC Inspection Manual, Chapter 0306 states that the
branch chief is responsible for quality control of RPS data, there is
no consistent approach to quality control among the regions and
approaches vary considerably in rigor and effectiveness. For
example, one regional branch chief will not transmit an inspection
report to the licensee until this individual has personally checked it
against the data in RPS. In a different region, a branch chief relies
on regional quarterly reviews, which compare the inspection reports
from that quarter against the data in RPS, to catch RPS data errors.

Furthermore, the regions employ inconsistent approaches to
entering information in RPS. At one extreme, a regional branch
chief stated that to reduce the chances of error, a single staff
position — the senior project engineer — enters information into the
system. This process is enforced throughout the region, which
results in only six people entering all inspection information into the
system. In a different region, however, the particular inspector who
led the inspection is responsible for entering information into RPS.
This example results in approximately 58 people entering
information into the system.

Another factor that jeopardizes data accuracy is that RPS data is
never locked down and subsequently always remains editable.
This allows information previously verified as correct to be changed
at any time. One branch chief stated there are occurrences where
data that had been verified as correct was later changed without
the branch chief’s knowledge. This branch chief expressed a
desire to have the capability to lock down data to prevent such
occurrences. The RPS administrator stated that RPS could be
designed to allow data to be locked down.

Impact on NRC Decisionmaking Process

Inaccurate and untimely inspection results can negatively affect
NRC decisionmaking and public confidence. Although there are
multiple safety nets in place, including management expertise, to
ensure public health and safety, inaccurate inspection results could
affect the agency’s ability to fulfill its mission of ensuring public
health and safety. NRC uses inspection information to ensure that
licensees are operating at acceptable safety levels. When this
information contains errors or is untimely, it does not provide
managers with an accurate picture of the NRC inspection program
as to the safety levels at nuclear power plants. In addition,
inspection information is provided to the public via the agency Web
site and inaccurate and untimely inspection results can erode
confidence in NRC information.



                           9
                                           Audit of NRC’s Reactor Program System



      Recommendations

      OIG recommends that the Executive Director for Operations:

      3.   Implement a uniform quality control and Reactor Program
           System data entry review process that will ensure data
           accuracy and timeliness.

      4.   Develop a process to lock down Reactor Program System
           inspection data fields after the inspection report has been
           issued.


C. RPS HELP (RPSHELP) IS INEFFICIENT

      NRC requires all information technology system administrators to
      provide their users with support using the system. RPS achieves
      this through an e-mail account, referred to as RPSHELP.
      RPSHELP is inefficient and not widely used because the service is
      not well managed. Specifically, there is no formal process for
      handling help requests and there are no performance metrics to
      assess timeliness and user satisfaction. An inefficient help process
      does not assure that users are receiving timely and adequate
      responses to their questions.

      Help Function

      RPSHELP is an NRC e-mail account designed to allow RPS users
      to convey concerns and questions regarding the system directly to
      experts who can respond to matters quickly and accurately.
      RPSHELP was created in 1997 to promote quick and efficient use
      of the system by helping users better understand how to use the
      system to meet their specific needs. NRC Inspection Manual
      Chapter 0306 informs users that RPSHELP is available and should
      be used to answer questions regarding use of the system.

      No Assignment and Tracking Process

      While users are directed to RPSHELP to better understand the
      system, the response process is inefficient. There is no systematic
      approach for assigning incoming queries to individuals for providing
      the responses and there is no formal process for tracking
      RPSHELP requests to completion and for user satisfaction.




                                10
                                     Audit of NRC’s Reactor Program System



When users submit questions via RPSHELP, three headquarters-
based employees who are knowledgeable about RPS are tasked
with responding to these queries. Subsequently, upon receipt of an
RPSHELP request, one or more of the three responders may opt to
respond. According to one responder, there are occasions when
multiple responders will send an answer to one user who requested
help. In other cases, help requests are overlooked until one of the
responders realizes that an answer has not been sent.

In addition, there is no formal tracking of RPSHELP requests to
completion and for user satisfaction. The system administrator
estimated that questions received via RPSHELP are typically
answered within a day or two, but said there is no formal process to
track responses. In addition, there are no performance goals
concerning timeliness or effectiveness of RPSHELP responses.

Formal Process Needed

The RPSHELP process is inefficient because it is not well
managed. Managers have not instituted a process for determining
who is responsible for answering questions submitted to
RPSHELP. Instead, they rely on an informal process that does not
ensure responses are disseminated. In addition, there is no formal
process to determine if answers to help requests are returned in an
adequate amount of time or if responses are useful.

Having an inefficient RPSHELP process does not assure that users
are receiving timely and adequate responses. Without
performance goals and a tracking process to determine whether
these goals are met, management cannot assess the effectiveness
or timeliness of the answers provided to RPS users.

Recommendations

OIG recommends that the Executive Director for Operations:

5.   Formalize a process for handling Reactor Program System
     Help requests.

6.   Create performance metrics to assess timeliness and user
     satisfaction of Reactor Program System Help.




                          11
                                                              Audit of NRC’s Reactor Program System



        D. CONFIGURATION CONTROL PROCESS HAS NOT IDENTIFIED SOME
        CONCERNS

                NRC requires that management of information technology systems
                include configuration control, a process for determining and
                implementing changes to a system. RPS configuration control is
                conducted during counterpart meetings. These meetings have
                been ineffective in identifying some RPS limitations because
                regional representatives:

                ¾ Have not received formal guidance on gathering user concerns.
                ¾ Have not conducted surveys of users on their needs.

                By failing to raise these issues at counterpart meetings, regional
                representatives prevent RPS from being further developed to meet
                user needs and system objectives.

                Configuration Control Requirements

                Managers of all NRC systems are required to follow the System
                Development and Life-Cycle Management (SDLCM) Methodology.
                This methodology defines the life cycle of an information
                technology system and describes the processes for developing,
                enhancing, and maintaining these systems. SDLCM requires the
                implementation of configuration control over information technology
                systems. Configuration control is a process of evaluating,
                approving or disapproving, and monitoring the implementation of
                changes to a system. RPS configuration control is conducted
                during counterpart meetings, where changes to the system are
                discussed, and after the meetings, when NRC makes changes to
                the system based on these discussions. In 1998, RPS managers
                provided regional counterparts with guidance describing their
                responsibilities. This guidance requires counterparts to:

                ¾ Obtain input from users concerning problems and potential
                  enhancements to RPS.
                ¾ Raise regional concerns at counterpart meetings.
                ¾ Work with other counterparts to reach consensus on needed
                  enhancements to the system.

                During the counterpart meetings, a representative from each region
                meets with the system managers,10 who are also RPSHELP
                responders, and other users based in headquarters to discuss
                regional concerns with the system.
10
  RPS system managers are three NRR employees who are responsible for maintaining and updating the
system.


                                                12
                                      Audit of NRC’s Reactor Program System




Counterpart Meetings Ineffective

RPS counterpart meetings have been ineffective in bringing some
RPS limitations to management attention. Two specific issues that
users in all four regions raised with OIG have never been
mentioned at the counterpart meetings. These issues are:

¾ The scheduling feature in RPS is limited and does not contain
  the level of detail desired by region-based reactor inspectors.
¾ RPS does not provide a tool for planning and tracking resident
  inspector annual inspection schedules.

Region-based reactor inspectors travel to commercial nuclear
power plants to conduct inspections in the areas of engineering,
maintenance, radiological controls, emergency preparedness,
security, and operator license requalification. They find the
scheduling feature in RPS limiting, as it does not contain the
desired level of detail. The desired level includes the ability to
schedule and view the inspection schedule for 18 months,
determine if inspections are fully staffed, and assess whether
inspections will overlap at the plants. Thus, instead of relying on
RPS to meet all of their scheduling needs, users have created
separate scheduling tools that incorporate their needs.

Resident inspectors, who conduct inspections that account for a
major part of the inspection program, have created tools to track
their inspections because RPS does not have this capability.
Resident inspectors rely on these separate tracking tools to ensure
inspection requirements are completed. For example, these tools
track planned inspections throughout the year, inspectors’ plans for
implementing inspection programs, and inspections that have been
completed. Of the 47 RPS users interviewed, 34 used separate
tools to track inspection information.

RPS managers told OIG that they rely on counterpart
representatives to bring regional issues to management’s attention.
One RPS manager stated that they were unaware of the issues
mentioned above, but agreed that these concerns were important
and could be addressed by RPS. In addition, many issues were
brought to an RPS manager’s attention, during a recent regional
office visit, which had never been mentioned at prior counterpart
meetings. The manager said that many of these issues could and
would now be addressed in RPS.




                           13
                                      Audit of NRC’s Reactor Program System



System Limitations Not Recognized

Various concerns have not been raised at counterpart meetings for
several reasons:

¾ Counterparts and users have failed to recognize certain issues
  as problems.
¾ Counterparts have varying subjective perspectives on what
  constitutes an issue that is appropriate for discussion at
  counterpart meetings.
¾ Counterparts have ineffective methods of reaching out to users
  to learn of their concerns.

Regional counterparts and system users have not recognized the
scheduling issues that have led to the creation of additional
systems as problems. Instead, they have accepted the system as
is and viewed it as having limited scheduling capabilities.
Counterparts and users have stated that the scheduling tool issues
reflect an inherent system weakness. Subsequently, instead of
bringing these issues to the counterpart meetings to see if the
underlying issues can be addressed, counterparts accept that users
rely on workarounds, such as separate tracking tools.

RPS regional counterparts rely on subjective criteria to determine
what issues rise to the level of appropriateness for discussion at the
counterpart meetings. One regional counterpart uses the volume of
user requests to identify issues for discussion in counterpart
meetings, while another raises any issue if there is no quick
workaround to resolve it.

In addition, none of the regional counterparts proactively search for
user concerns or issues. Counterparts bring regional concerns to
the counterpart meetings based solely on their recollection of
issues users have asked them about during the months preceding
the counterpart meeting.

By failing to raise certain concerns at meetings, counterparts
prevent RPS from being further enhanced to meet user needs. As
stated in the background section of this report, RPS was intended
to reduce the number of locations in which inspection data is
stored; however, the creation of separate tools does not allow RPS
to meet this fundamental goal. In addition, separate tracking tools
do not allow NRR managers to have a complete view of the
inspection program.




                          14
                                          Audit of NRC’s Reactor Program System



     Recommendations

     OIG recommends that the Executive Director for Operations:

     7.   Develop a formal process for Reactor Program System
          regional counterparts to proactively gather user concerns prior
          to counterpart meetings.

     8.   Conduct an annual Reactor Program System user survey to
          determine the needs of the users.


E. TRAINING AND GUIDANCE NOT PROVIDED TO SYSTEM USERS

     Inadequate training and outdated guidance have led to ineffective
     use of RPS. This has occurred because managers did not deem
     training and user guidance a priority. As a result, users are
     unaware of system functionality and there is an increased
     possibility of data error.

     Training Requirements

     SDLCM requires that training be provided to information system
     users to allow them to learn a system and how it operates. In
     addition, Office of Management and Budget Circular No. A-130
     Appendix III, “Security of Federal Automated Information
     Resources”, which establishes policy for the management of
     Federal information resources, requires that users receive training
     to ensure they understand their roles and responsibilities with a
     system.

     Formal Training and Updated Manuals Needed

     RPS training has been inadequate to ensure that users have a
     thorough understanding of the system. Moreover, written
     instructions concerning how to use the system are outdated.

     RPS users have not received formal training on the system since
     initial training was provided to RPS users in 1998. Of 47 users
     interviewed, 24 had never received training. More than 40 percent
     of those interviewed stated that training would be helpful. Many
     users stated that they learned how to use RPS solely from on-the-
     job training. When users have questions on how the system works,
     they said they ask a more experienced user.




                               15
                                      Audit of NRC’s Reactor Program System



Furthermore, the RPS user manuals containing information on how
to enter information in the system and generate reports are
outdated. The system has been updated multiple times, but the
system manuals were not kept current with the changes.
Approximately 45 percent of the 47 users interviewed said a quick
reference guide to the system would be useful.

Users have not received training and the manuals have not been
updated because the system administrator has not deemed it a
priority. RPS managers said they rely on regional counterparts to
provide training to users, but there has been no oversight to ensure
that such training has been provided. In addition, regional
counterparts have not expressed a need for training to the RPS
administrator.

Due to a lack of formal training and updated manuals, users are not
fully aware of RPS capabilities. This lack of understanding has led
some users to create separate tracking tools for functions that RPS
already performs. In addition, lack of training and outdated
manuals can lead to the dissemination of incorrect procedures and
incorrect information being entered into the system.

During the course of this audit, RPS managers began developing
an online user tutorial on how to use main portions of the system.
However, users will also need training and current guidance in the
interim before this tutorial is completed.

Recommendations

OIG recommends that the Executive Director for Operations:

9.   Implement a formal Reactor Program System training program
     that includes periodic refresher training and classes tailored to
     different user responsibilities.

10. Complete the efforts to provide users with current system
    information in the form of online tutorials.

Summary

Without improvements to RPS, NRC decisionmakers cannot have a
complete picture of the nuclear power plant inspection program. To
support adequate protection of public health and safety, agency
decisonmakers need accurate information from RPS. At the time of
this audit, RPS contained information that was inaccurate and
incomplete. Reliance on faulty data or data that has not been



                          16
                                    Audit of NRC’s Reactor Program System



locked down could result in poor decisionmaking. Improvements in
RPS will strengthen protection over data stored in the system and
better ensure that the system meets its operational requirements.
Specifically, this will allow:

¾ RPS to be in compliance with system access control
  requirements.
¾ Accurate and timely information to be used in decisionmaking
  and when informing the public.
¾ The system help service to be more responsive to user needs.
¾ The system to meet the needs of the users.
¾ Users to better understand the system through training and
  guidance.




                         17
                                              Audit of NRC’s Reactor Program System



IV. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations:

        1. Implement a tiered access level structure that allows users
           access to RPS modules based on the least privilege principle.
           This should include guidance on which users may receive what
           level of access.

        2. Implement a process for removing access rights from inactive
           Reactor Program System users.

        3. Implement a uniform quality control and Reactor Program
           System data entry review process that will ensure data accuracy
           and timeliness.

        4. Develop a process to lock down Reactor Program System
           inspection data fields after the inspection report has been
           issued.

        5. Formalize a process for handling Reactor Program System Help
           requests.

        6. Create performance metrics to assess timeliness and user
           satisfaction of Reactor Program System Help.

        7. Develop a formal process for Reactor Program System regional
           counterparts to proactively gather user concerns prior to
           counterpart meetings.

        8. Conduct an annual Reactor Program System user survey to
           determine the needs of the users.

        9. Implement a formal Reactor Program System training program
           that includes periodic refresher training and classes tailored to
           different user responsibilities.

        10. Complete the efforts to provide users with current system
            information in the form of online tutorials.




                                  18
                                             Audit of NRC’s Reactor Program System



V. AGENCY COMMENTS

       At an exit conference with agency senior executives held on
       March 2, 2005, NRC officials generally agreed with the report’s
       findings and recommendations. Subsequent to that meeting, OIG
       staff met with NRR staff to address specific issues and concerns
       needing further clarification and/or explanation. On March 31,
       2005, the Executive Director of Operations provided a formal
       response to this report in which he agreed with the final version of
       the report. Appendix B contains a copy of the agency’s written
       comments.




                                 19
                          Audit of NRC’s Reactor Program System




[Page intentionally left blank.]




              20
                                                Audit of NRC’s Reactor Program System


                                                                         Appendix A
SCOPE AND METHODOLOGY

       Auditors reviewed RPS to determine if (1) the system provides for
       the availability, confidentiality, and integrity of the data stored in the
       system and (2) RPS meets its required operational capabilities.
       This audit focused on RPS as an information technology system
       with regard to the system modules that handle inspection planning
       and results.

       The OIG audit team reviewed relevant criteria, including
       Management Directive 8.13, Reactor Oversight Process; NRC
       Inspection Manual, Chapter 0306, “Information Technology Support
       for the Reactor Oversight Process”; and Office of Management and
       Budget Circular No. A-130 Appendix III, “Security of Federal
       Automated Information Resources”. The audit team also reviewed
       the RPS Benefit-Cost Analysis and Security Plan.

       Auditors interviewed NRR staff responsible for the RPS system to
       understand the development and management of the system.
       Auditors also interviewed RPS users in all four NRC regions,
       including branch chiefs, senior project engineers, project engineers,
       reactor inspectors, resident inspectors, and resident office
       assistants to determine users interaction and satisfaction with the
       system.

       Auditors compared information from paper inspection reports to the
       corresponding information in the Item Reporting module of RPS in
       order to determine accuracy and timeliness of the data in RPS.
       Auditors reviewed a total of 646 data items contained in 32
       inspection reports. These reports reflected results drawn from four
       commercial nuclear power plants in each of NRC’s four regions.

       This work was conducted from June 2004 through January 2005, in
       accordance with generally accepted Government auditing
       standards and included a review of management controls related to
       audit objectives. The work was conducted by Beth Serepca, Team
       Leader; David Ditto, Senior Management Analyst; and
       Rebecca Underhill, Management Analyst.




                                   21
                          Audit of NRC’s Reactor Program System




[Page intentionally left blank.]




              22
                              Audit of NRC’s Reactor Program System


                                                       Appendix B
FORMAL AGENCY COMMENTS




                         23
